No. 21IN THE

Supreme Court of the United States
EDWARD D. JONES & CO., L.P., et al.,
Petitioners,
v.
EDWARD ANDERSON, et al.,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 12th day of October, 2021, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Respondents:
Michael D. Murphy
FRANKLIN D. AZAR & ASSOCIATES, P.C.
14426 East Evans Avenue
Aurora, CO 80014
(303) 757-3300
murphym@fdazar.com
Michael A. Brown
SPERTUS, LANDES & UMHOFER, LLP
617 West 7th Street
Suite 200
Los Angeles, CA 90017
(213) 205-6520
tbrown@spertuslaw.com

John R. Garner
GARNER & ASSOCIATES
109 North Marshall Avenue
P.O. Box 908
Willows, CA 95988
(530) 934-3324
john@garner-associates.com

/s/ James F. Bennett
James F. Bennett

